HHS/OIG, Audit - Audit of the Effectiveness of the Revised Medicare
Outlier Payment Regulations for Inpatient Acute Care Hospitals, (A-07-04-04032)
Department of Health and Human Services
Office of Inspector General -- AUDIT
Audit of the Effectiveness of the Revised Medicare
Outlier Payment Regulations for Inpatient Acute Care Hospitals, (A-07-04-04032)
September 9, 2005
Complete
Text of Report is available in PDF format (518 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether the 2003 revision of
the Medicare outlier payment regulations reduced operating outlier payments for
specific hospitals.  The revised outlier payment regulations reduced collective
operating outlier payments to 362 hospitals that had received high levels of
such payments.  For those hospitals, operating outlier payments decreased from
9.1 percent of Medicare operating diagnosis-related group payments in December
2002 to 5.2 percent in December 2003.  Further outlier payment adjustments may
occur when the fiscal intermediaries conduct final settlements of the hospitals
cost reports.  We recommended that CMS continue to monitor Medicare outlier
payments to all prospective payment system hospitals to ensure that the payments
comply with Medicare regulations.  CMS concurred.